Audit Report GR-60-05-007

Internet Crimes Against Children Task Force Grants Awarded to the Utah Attorney Generals Office, Salt Lake City, Utah

Audit Report GR-60-05-007


May 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Internet Crimes Against Children Task Force grants awarded to the Utah Attorney Generals Office by the U.S. Department of Justice, Office of Justice Programs (OJP), Office of Juvenile Justice and Delinquency Program.  The purpose of these grants was to enhance state and local law enforcements investigative response to Internet crimes against children.  The Utah Attorney Generals Office used its grant funding to establish a statewide multidisciplinary, multijurisdictional task force to prevent, interdict, investigate, and prosecute sexual exploitation offenses against children by offenders using the Internet, online communication systems, or other computer technology.  The Utah Attorney Generals Office Internet Crimes Against Children Task Force (Task Force) was awarded a total of $1.3 million in grant funds through Grant No. 2000-MC-CX-K009, which included the original award and three supplemental awards.  The grants cover the period from January 2000 through June 2005.

We tested the Task Forces accounting records to determine if reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grants. 

Our audit revealed that the Task Force charged unallowable, and unnecessary costs to the grant, and did not have adequate documentation to support expenditures.  Additionally, required reports were not always submitted timely.  As a result of the deficiencies listed below, we question $44,698 or approximately 5 percent of the funds reimbursed under the grant.   Specifically we found:

Unallowable costs of $23,034 were charged to the grant.
	
	Unsupported costs of $20,822 were charged to the grant. 

	Unnecessary costs of $842 were charged to the grant. 

	Two of the 17 Financial Status Reports submitted by the grantee were submitted late. 

	The grantee did not submit six of the nine required Progress Reports. 

These items are discussed in the Findings and Recommendations section of our report.  Our audit objectives, scope and methodology appear in Appendix I.